NO. 19-516
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2019
♦
NOLAN ESPINDA,
Hawaii Department of Public Safety Director, et al.
Petitioners
- vs ROYCE C. GOUVEIA
Respondent
♦
CERTIFICATE OF SERVICE
I, PETER C. WOLFF, JR. certify pursuant to Rules 29.3 and 29.4 of the Rules
of the Supreme Court of the United States that I am member of the Bar of the
Supreme Court of the United States and an attorney appointed under the Criminal
Justice Act of 1964, see 18 U.S.C. §3006A, and that on November 5, 2019, the
Motion to Proceed In Forma Pauperis for the Brief in Opposition submitted on
October 31, 2019, in the above-entitled case was electronically filed in the Supreme
Court of the United States, copies sent through the United States Postal Service by
first-class mail, postage prepaid, and with additional copies of said pleading for email
to the following, and an electronic version was emailed to
supremectbriefs@usdoj.gov:

DWIGHT NADAMOTO
Acting Prosecuting Attorney
City and County of Honolulu
DONN FUDO
Deputy Prosecuting Attorney
1060 Richards Street
Honolulu, Hawaii 96813
dfudo@honolulu.gov
Counsel of Record for Petitioners
NOLAN P. ESPINDA,
Director of Public Safety for the State of Hawaii; and
CLARE CONNORS,
Attorney General of the State of Hawaii
DATED: Honolulu, Hawaii, November 5, 2019.
/s/ Peter C. Wolff, Jr.
PETER C. WOLFF, JR.
Federal Public Defender
District of Hawaii
300 Ala Moana Boulevard, Suite 7104
Honolulu, Hawaii 96850
Telephone: (808) 541-2521
Facsimile: (808) 541-3545
Counsel of Record for Respondent
ROYCE C. GOUVEIA

-2-

